Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   1-800-MEDICARE: CALLER 

       SATISFACTION AND 

         EXPERIENCES





                    Daniel R. Levinson

                     Inspector General 


                     September 2007

                     OEI-07-06-00530

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVE
                  To assess callers’ satisfaction and experiences with Medicare telephone
                  customer service and make comparisons with 2004 baseline data.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) uses various
                  outreach efforts to educate and assist Medicare’s 42 million
                  beneficiaries with decisions that affect their health care. The most
                  commonly used communication channel is the telephone customer
                  service system, which callers access by calling 1-800-MEDICARE. In
                  fiscal year (FY) 2004, callers made approximately 29 million calls to
                  Medicare call centers, at a cost of $200 million to CMS. In FY 2006,
                  callers made approximately 49 million calls to Medicare call centers, at
                  a cost of $441 million to CMS. This represents an increase of more than
                  68 percent in the total number of calls to Medicare call centers from
                  FY 2004 to FY 2006 and more than a doubling of costs.
                  In August 2005, the Office of Inspector General issued a report entitled
                  “Medicare Beneficiary Telephone Customer Service” (OEI-07-04-00030),
                  which assessed callers’ satisfaction and experiences with the customer
                  service they received between April 12–16, 2004. The earlier study
                  provides the 2004 baseline data for the comparisons in this evaluation,
                  for which we conducted interviews with a random sample of callers over
                  a 1-week period (January 22–26, 2007) to assess their satisfaction and
                  experiences with Medicare telephone customer service. We asked
                  callers whether they were satisfied with the customer service they
                  received, whether they believed their questions were answered, and
                  whether they received all the information they needed. We also asked
                  callers about their priorities for customer service.


                  FINDINGS
                  Seventy-one percent of callers who completed their calls were
                  satisfied overall with the customer service they received, a
                  decrease of 13 percentage points compared with the 2004 baseline
                  data. Callers’ overall satisfaction was associated with three
                  experiences: (1) finding the Interactive Voice Response (IVR) easy to
                  use, (2) receiving answers to their questions or all of the information
                  they needed, and (3) receiving answers to their questions as quickly as
                  desired. In both the 2007 data and the 2004 baseline data, the most

OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   i
E X E C U T I V E                        S U           M M A R Y


                   common reason callers gave for not being satisfied was that their
                   problems or questions were not resolved.
                   More callers in 2007 than in 2004 reported hanging up before
                   receiving answers to their questions and had concerns about wait
                   times. Twenty-one percent of callers to 1-800-MEDICARE during the
                   week of our review hung up before receiving responses to their
                   questions. Sixty-six percent of these callers hung up because they
                   considered the wait time to speak with a customer service
                   representative too long. In the 2004 baseline data, only 12 percent of
                   callers hung up before receiving responses to their questions.
                   Similar to the 2004 baseline data, 44 percent of callers in the 2007
                   evaluation had difficulty accessing information. Thirty-one percent
                   of callers reported that the IVR was not easy to use. Nineteen percent
                   of callers reported not receiving answers to their questions or all the
                   information they needed. Twelve percent of callers who completed their
                   calls reported not receiving the answers as quickly as they desired.


                   RECOMMENDATIONS
                   Call volume increased 68 percent between FY 2004 and FY 2006; during
                   this same period, call center costs more than doubled. Overall, the
                   majority of callers were satisfied with telephone customer service during
                   the week of our fieldwork in 2007; however, satisfaction decreased by
                   13 percentage points when compared with the 2004 baseline data. The
                   percentage of callers who experienced difficulty accessing information
                   remained the same, at 44 percent. Callers’ negative comments
                   regarding the IVR also remained similar to the results of our 2004
                   baseline data, with callers citing confusion, aggravation, and too much
                   time spent navigating the menus. We note that more callers hung up
                   before receiving responses to their questions in our week of fieldwork in
                   2007 than in the 2004 baseline data and that an increased number of
                   callers cited the amount of time spent on the telephone as their highest
                   customer service priority. We recommend that CMS:

                   Reassess the level of resources directed toward improving the
                   question-answering capabilties of the IVR. Only 5 of 206 callers
                   reported receiving answers to their questions using the IVR. CMS
                   should reassess whether it should continue to direct resources toward
                   further improving the question-answering capabilities of the IVR or
                   toward supporting more customer service representatives (CSR) to
                   answer questions.

 OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   ii
E X E C U T I V E                        S U           M M A R Y


                   Ensure that callers receive all needed information. When
                   1-800-MEDICARE fails to provide needed information, callers often
                   have few alternative methods to obtain it. CMS should consider ways to
                   ensure that callers’ questions are answered during their first call.

                   Continue to seek ways to reduce wait times. CMS should continue to
                   seek ways to reduce the time callers must wait to speak with a CSR.
                   Redirecting resources from the IVR’s question-answering capabilities
                   and ensuring that callers’ questions are fully answered may reduce the
                   need for callers to make multiple calls and shorten wait times.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments to the draft report, CMS did not indicate whether it
                   concurred with our recommendations. However, CMS described several
                   actions that it has taken or planned that relate to our findings and
                   recommendations. CMS stated that it will further determine how best
                   to simplify choices and menu options within the IVR, conduct a study to
                   help determine why callers are not receiving the information they need,
                   and implement technological solutions to provide beneficiaries with
                   options for obtaining answers to their questions without having to wait
                   to talk to a CSR. CMS provided information on efforts underway or
                   planned for the future aimed at improving call-center operations. We
                   ask that, in its final management decision, CMS more clearly indicate
                   whether it concurs with our recommendations and what steps, if any, it
                   will take to implement them.




 OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   iii
Δ   T A B L E                      O F                  C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 7

                              Overall satisfaction decreased compared to 2004 data . . . . . . . . . . 7 


                              More callers reported hanging up and wait time concerns . . . . . . . 8 


                              Callers reported similar difficulties in 2004 and 2007 . . . . . . . . . . 9 



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                              Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                              A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                              B: Statistical Correlations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                              C: Profile of Surveyed Callers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                              D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 





OEI-07-06-00530         1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES                   iv
E X E C U T I V E                        S U           M M A R Y
Δ    IT NA TB RL OE D OU FC T CI OO NN T E N T S




                   OBJECTIVE
                   To assess callers’ satisfaction and experiences with Medicare telephone
                   customer service and make comparisons with 2004 baseline data.


                   BACKGROUND
                   Medicare Beneficiary Telephone Customer Service
                   The Centers for Medicare & Medicaid Services (CMS) uses various
                   outreach efforts to educate and assist Medicare’s 42 million
                   beneficiaries with decisions that affect their health care. The most
                   commonly used communication channel is the telephone customer
                   service system, which callers access by calling 1-800-MEDICARE. In
                   fiscal year (FY) 2004, callers made approximately 29 million calls to
                   Medicare call centers, at a cost of $200 million to CMS.1 In FY 2006,
                   callers made approximately 49 million calls to Medicare call centers, at
                   a cost of $441 million to CMS.2 This represents an increase of more
                   than 68 percent in the total number of calls to Medicare call centers
                   from FY 2004 to FY 2006. According to CMS, much of the increase in
                   call volume is because of the implementation of Medicare Part D and
                   other changes to Medicare that the Medicare Prescription Drug,
                   Improvement, and Modernization Act of 2003 (MMA) mandated.

                   In August 2005, the Office of Inspector General (OIG) issued a report
                   entitled “Medicare Beneficiary Telephone Customer Service”
                   (OEI-07-04-00030), which assessed caller satisfaction and experiences
                   between April 12–16, 2004, and identified CMS and contractor efforts to
                   ensure quality customer service. The earlier study provides the 2004
                   baseline data for the comparisons made in the current evaluation.




                       1 CMS provided these call volume and cost figures in e-mails to OIG dated
                   December 6 and 7, 2004.
                       2 CMS provided these call volume and cost figures in an e-mail to OIG dated
                   September 21, 2006.



 OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   1
I N T R O D        U C T             I O N


                    1-800-MEDICARE
                    Two contractors operate 1-800-MEDICARE call centers.3 These
                    contractors employ customer service representatives (CSR) to operate
                    seven call centers to answer calls to 1-800-MEDICARE.

                    Carriers, fiscal intermediaries, and durable medical equipment regional
                    carriers, which are contractors that process Medicare claims, also
                    employ CSRs to operate approximately 50 call centers. These call
                    centers are commonly referred to as fee-for-service (FFS) call centers.
                    Only certain calls are routed to the FFS call centers. In 2004, FFS call
                    centers handled approximately 44 percent of the total volume of calls to
                    Medicare-funded call centers; in 2006, they handled 18 percent.
                    Therefore, the proportion of calls that FFS call centers handle is
                    decreasing.
                    Changes in Telephone Customer Service
                    On July 27, 2004, CMS completed the transition to 1-800-MEDICARE
                    as the single point of entry for Medicare telephone customer service.
                    Previously (and when OIG collected the 2004 baseline data), callers
                    could directly call 1-800-MEDICARE or they could call the claims
                    contractor that paid claims in their region. Now, callers must call
                    1-800-MEDICARE; their calls may be routed to CSRs at
                    1-800-MEDICARE or to FFS call centers depending on their responses
                    to the Interactive Voice Response (IVR) questions.

                    According to the CMS Strategic Action Plan 2006–2009, implementing a
                    single point of entry for Medicare telephone customer service will
                    improve operational efficiency, reduce operating costs, and increase the
                    consistency and accuracy of information provided to callers.
                    Specifically, the CMS strategy includes maintaining the IVR to provide
                    24-hour access to information, standardizing the software CSRs use to
                    answer Medicare inquiries, and establishing one national information
                    warehouse.4
                    Call Routing
                    The IVR answers each call to 1-800-MEDICARE. The IVR presents
                    options callers can choose from by speaking a word or phrase or
                    pressing a number on their telephone. Depending on the options callers

                       3 At the time of our review, two contractors operated the 1-800-MEDICARE call centers.
                    According to CMS, one of these contractors assumed operations of all the 1-800-MEDICARE
                    call centers in June 2007.
                        4 CMS, “Strategic Action Plan 2006–2009,” pp. 34–35.




 OEI-07-06-00530    1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES     2
I N T R O D        U C T             I O N


                    choose, the IVR will either provide information or route the caller to a
                    CSR.

                    Calls to 1-800-MEDICARE are routed to CSRs at any of the call centers
                    (1-800-MEDICARE or FFS), depending on the options callers choose in
                    the IVR. For instance, if a caller has a question about a specific claim,
                    the IVR may route the caller to a CSR at an FFS call center. Other
                    inquiries, such as Part D questions, may be handled by a CSR at a
                    1-800-MEDICARE call center.
                    Customer Service Representatives’ Responses to Callers’ Questions
                    CSRs access information needed to answer many callers’ questions
                    using desktop computer software. The software queries a database of
                    prepared scripts that CSRs access using keywords from callers’
                    questions. CSRs respond to callers’ questions by reading the prepared
                    scripts rather than by formulating a unique response based on their
                    knowledge of the Medicare program. In some instances, the information
                    that the CSR is reading is the same information that is included in the
                    “Medicare & You” handbook. General CSR training does not focus on
                    learning Medicare program policy; some CSRs receive specialized
                    training to answer questions about specific claims.

                    Although callers can access Medicare information through the IVR or
                    speak with a CSR about general Medicare questions 24 hours a day,
                    7 days a week, CSRs who handle specific claim inquiries are available
                    only from 8 a.m. to 7 p.m. eastern time at 1-800-MEDICARE call
                    centers and for more limited hours at FFS call centers.
                    2004 Baseline Data
                    In our previous evaluation, 84 percent of callers were satisfied overall
                    with the customer service they received. However, many callers
                    reported having difficulty accessing information through Medicare call
                    centers. Thirty-two percent of callers found the IVR they encountered
                    difficult to use, citing problems such as the recording being too long,
                    being presented with too many options, or not knowing which option to
                    select. Twenty-four percent of callers reported that they did not receive
                    answers to their questions or all of the information that they needed,
                    and 12 percent of callers reported not receiving answers as quickly as
                    they desired.

                    In comments to the previous report, CMS described efforts to improve
                    the telephone customer service system by enhancing the IVR’s
                    capabilities. CMS contracted with a leading industry expert in the field
                    of IVR speech recognition and usability to conduct an indepth

 OEI-07-06-00530    1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   3
I N T R O D        U C T             I O N


                    evaluation of the IVR. In 2005, CMS released several major upgrades to
                    the IVR to address customer feedback and expert advice. One specific
                    change was the addition of synonyms to the possible responses to
                    appropriately route more callers to requested information. For example,
                    the terms “drug coverage,” “drug benefit,” and “prescription drugs” were
                    added to the responses that route callers to information on Medicare’s
                    prescription drug program.
                    Other Related Studies
                    In addition to the August 2005 OIG evaluation, the Government
                    Accountability Office (GAO) issued an MMA-mandated study in
                    December 2004 entitled “Accuracy of Responses from the
                    1-800-MEDICARE Help Line Should Be Improved” (GAO-05-130). This
                    report assessed the accuracy and consistency of information provided
                    through 1-800-MEDICARE. GAO found that CSRs provided accurate
                    answers 61 percent of the time. A June 2006 GAO report on
                    prescription drug plan call centers, entitled “Prescription Drug Plan
                    Sponsor Call Center Responses Were Prompt, but Not Consistently
                    Accurate and Complete” (GAO-06-710), found that these call centers
                    provided accurate and complete responses in about one-third of calls.
                    Additionally, GAO released reports in 2002 and 2004 regarding
                    telephone customer service for health care providers enrolled in
                    Medicare (GAO-02-249 and GAO-04-669). These reports found that the
                    CSRs they tested rarely provided complete and accurate answers to
                    questions that a health care provider might typically ask.


                    METHODOLOGY
                    Call Center Site Visits
                    We conducted site visits to two 1-800-MEDICARE call centers in
                    November 2006. We interviewed CSRs and CSR supervisors, collected
                    information on CSR training, and observed telephone and computer
                    equipment use during live calls. The information we gained through the
                    site visits provided a broad context of call center operations as we
                    considered recommendations.
                    Methodological Differences Between the Current and Previous Evaluations
                    As previously mentioned, callers accessing Medicare telephone customer
                    service could either call 1-800-MEDICARE or the claims contractor for
                    their region at the time OIG collected the 2004 baseline data. To ensure
                    that the sample represented callers to all types of call centers, we
                    sampled from strata that made up the universe of callers to


 OEI-07-06-00530    1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   4
I N T R O D        U C T             I O N


                    (1) 1-800-MEDICARE, (2) large FFS call centers, and (3) small FFS call
                    centers. Because callers now have only a single point of entry through
                    1-800-MEDICARE, we did not stratify by call center. However, callers
                    in our 2007 evaluation sample may have been routed by the IVR to
                    CSRs either in 1-800-MEDICARE or in FFS call centers.
                    Caller Interviews
                    Repeating a process used to collect the 2004 baseline data, we obtained
                    from CMS a listing of all calls made to 1-800-MEDICARE on each day
                    in a 1-week period (Monday through Friday). This listing included the
                    following information: city and State of caller, originating (caller)
                    telephone number, and date and time of call. Demographic information,
                    such as gender or age of callers, is not collected in the CMS data.

                    We chose the week of January 22–26, 2007, for caller interviews. We
                    worked with CMS to select a period that would be representative of
                    normal call volume and during which CMS and contractor staff would
                    be available to make the necessary daily transmissions of caller data.

                    For each day (January 22–26), we eliminated duplicate originating
                    telephone numbers (some callers called more than once in a given day)
                    and then randomly selected 50 callers (50 x 5 days = 250 randomly
                    selected callers). We contacted these callers by phone regarding their
                    satisfaction and experiences calling 1-800-MEDICARE. As indicated in
                    Table 1, we completed 206 interviews from the sample of 250 callers, for
                    an 82-percent response rate.


                                   Table 1: Population, Sampled Calls, and Completed Interviews
                                   by Day

                                   Day of Week                            Population              Sampled Calls   Completed Interviews

                                   Monday                                       112,792                     50                     43

                                   Tuesday                                        97,336                    50                     42

                                   Wednesday                                      86,565                    50                     41

                                   Thursday                                       82,334                    50                     37

                                   Friday                                         81,854                    50                     43

                                     Total                                      460,881                    250                    206

                                   Source: OIG analysis of telephone network data, 2007.




 OEI-07-06-00530    1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES                              5
I N T R O D        U C T             I O N


                    We completed 98 percent of our interviews within 2 business days of the
                    sampled call to 1-800-MEDICARE. The other 2 percent were completed
                    within 4 business days. We ensured that we spoke to the person who
                    placed the call to 1-800-MEDICARE rather than to another individual
                    in the household. We conducted telephone interviews to determine
                    factors such as how callers rated their experience overall, whether they
                    found the IVR easy to use, whether callers’ questions were answered,
                    whether callers received all the information they needed, and whether
                    callers’ questions were answered as quickly as they desired. Findings
                    are projected to the universe of calls for January 22–26, 2007. We used
                    the same interview questions that we used to collect the 2004 baseline
                    data so that we could compare the results of the interviews to determine
                    whether caller satisfaction and experiences differed.
                    Scope
                    We did not assess the accuracy of the information CSRs gave to callers,
                    although we did ask callers whether they believed the information they
                    received fully answered their questions. We did not differentiate
                    between first-time and repeat callers. Finally, we did not follow up on
                    calls in which the CSR promised a return call; these callers were asked
                    to report their experiences only with the service they received in their
                    sampled call to 1-800-MEDICARE.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-06-00530    1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   6
    Δ       F I N D I N G S

Seventy-one percent of callers who completed their               Nineteen percent of callers who
       calls were satisfied overall with the customer            completed their calls were
 service they received, a decrease of 13 percentage              unsatisfied overall, and 10 percent
                                                                 of callers were unsure whether they
       points compared with the 2004 baseline data
                                                                 were satisfied. Figure 1 illustrates
                          the level of satisfaction for callers who completed their calls. In
                          comparison, 84 percent of callers in the 2004 baseline data were
                          satisfied overall with the customer service they received. (See Appendix
                          A for confidence intervals for all point estimates.)

                                 Figure 1: Overall Satisfaction Among Callers Who Completed 

                                               Their Calls to 1-800-MEDICARE




                                                                           10.5%




                                                           19.0%




                                                                                                            70.5%




                                                                     Satisfied         Unsatisfied       Unsure

                                 Source: OIG analysis of caller interviews, 2007.


                          We asked all callers about their use of the IVR and their priorities for
                          telephone customer service. Additionally, we asked callers who
                          completed their calls about a variety of experiences, such as the need to
                          call multiple times, receipt of answers and all the information they
                          needed, actions taken as a result of the call, receipt of answers quickly
                          or being placed on hold, courtesy of the CSR, and overall satisfaction
                          with the customer service received. Based on all questions we asked,
                          callers’ overall satisfaction was associated with three experiences:
                          • finding the IVR easy to use,

                          •	 receiving answers to their questions and all of the information they
                             needed, and
                          • receiving answers to their questions as quickly as desired.




        OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES       7
F   I N D I N G        S


                      Correlations are statistically significant at the 95-percent confidence
                      level. (See Appendix B for statistical correlations.)

                      In both the 2007 data and the 2004 baseline data, the most common
                      reason callers gave for not being satisfied was that their problems or
                      questions were not resolved. Although this is not a statistically
                      significant difference, more callers were not satisfied because their
                      questions or problems remained unresolved in 2007 (13 percent) than
                      in 2004 (8 percent). Callers in both years reported other reasons for
                      not being satisfied, such as difficulty with the IVR or encountering a
                      discourteous CSR, but not in sufficient numbers to make meaningful
                      comparisons. We also looked for relationships between the reasons
                      for callers’ calls (e.g., prescription drug benefits, claims questions) and
                      caller satisfaction but found no significant correlations.



   More callers in 2007 than in 2004 reported               Of the callers with whom we
                                                            spoke, 79 percent reported
 hanging up before receiving answers to their
                                                            completing their calls (i.e., they
questions and had concerns about wait times
                                                            received responses to their
                      questions from CSRs or the IVR). The remaining 21 percent of callers
                                                       5

                      hung up before completing their calls, citing reasons such as
                      experiencing long hold times or confusion with the IVR, an increase of
                      9 percentage points over 2004. Additionally, more callers offered
                      negative comments relating to the amount of time spent waiting to
                      speak with a CSR compared to the 2004 baseline data.
                      Twenty-one percent of callers to 1-800-MEDICARE hung up before receiving
                      answers to their questions
                      Sixty-six percent of these callers hung up because they considered the
                      wait time to speak with a CSR too long.6 Callers reported that the IVR’s
                      estimated wait times ranged from 10 minutes to 1 hour. In the 2004
                      baseline data, only 12 percent of callers hung up before receiving
                      responses to their questions. Of the 34 sampled callers who hung up in




                          5 Receiving a response does not necessarily mean that callers believed their questions
                      had been fully answered. Of the 206 sampled callers, 164 completed interactions with the
                      IVR or a CSR, but some of these callers did not believe that their questions or issues had
                      been resolved by those interactions.
                        6 Three callers reported getting disconnected during their calls, and five callers reported
                      not being able to successfully navigate the IVR.



    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES             8
F   I N D I N G        S


                      2004, 2 said that they hung up because the wait time to speak with a
                      CSR was too long.
                      Callers varied in how long they were willing to wait to speak with a CSR
                      Some callers believed that a 30-minute wait was acceptable, while
                      others believed that a 5-minute wait was too long. Overall, 38 percent
                      of callers who spoke with a CSR believed they had to wait too long. One
                      caller described her strategy for dealing with the long wait, saying “[The
                      IVR said the wait would be] 30 to 40 minutes. I gave the phone to my
                      husband who was reading a book during the wait. I didn’t want to risk
                      hanging up and calling back and then waiting again.”
                      Three callers reported that after navigating the IVR, a person came on
                      the line and took their name and number, explaining that
                      1-800-MEDICARE was currently experiencing a high volume of calls
                      and that someone would call them back. These callers did not have long
                      hold times, but did have to wait for calls back.
                      In 2007, more callers ranked “time spent on the telephone” as the most
                      important customer service priority than in the 2004 baseline data
                      In addition to asking callers about their experiences during their calls
                      to 1-800-MEDICARE, we also asked them about their priorities for
                      customer service. We identified three priority areas for telephone
                      customer service: the accuracy of the answer given, the courtesy of
                      the person spoken with, and the amount of time spent on the
                      telephone. In both studies, accuracy was ranked the most important
                      of the three priorities.7 However, in our 2004 baseline data,
                      12 percent of callers ranked time spent on the telephone as the most
                      important of these three, while in this evaluation, 24 percent of
                      callers ranked time as the most important.


                                                             Similar to the 2004 baseline data,
Similar to the 2004 baseline data, 44 percent of
                                                             44 percent of callers in the 2007
   callers in the 2007 evaluation had difficulty
                                                             evaluation had difficulty accessing
                         accessing information               information, reporting at least one
                      of the following experiences: (1) finding the IVR not easy to use,
                      (2) not receiving answers to their questions or all the information they
                      needed, or (3) not receiving answers to their questions as quickly as


                        7 Sixty-five percent of the 2004 callers ranked accuracy most important; 61 percent of
                      2007 callers ranked accuracy most important.



    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES        9
F   I N D I N G 
S


                      desired. A profile of callers and their experiences can be found in
                      Appendix C.
                      Thirty-one percent of callers reported that the IVR was not easy to use;
                      callers offered a variety of concerns about the IVR
                      Callers’ reported experiences with the IVR are similar to the 2004
                      baseline data, in which 32 percent of callers who encountered an IVR
                      said the IVR was not easy to use. Twenty percent of callers said that
                      the IVR did not understand their spoken responses. They described
                      problems such as having to repeat their response several times or the
                      IVR not being able to understand certain types of information spoken to
                      it, such as Social Security numbers or addresses. For example, one
                      caller reported that the IVR could not understand the suffix at the end
                      of his Medicare identification number.

                      Thirty-seven percent of callers reported negative opinions of the IVR,
                      giving reasons such as the IVR not providing an option for the caller’s
                      question or being too time-consuming. Callers expressed aggravation,
                      annoyance, and nervousness regarding the IVR. As one caller put it,
                      “The recording gets me upset and confused. I want something simple.”
                      Overall, 18 percent of callers expressed a desire to speak with a live
                      person. Five percent of sampled callers (11 of 206) described how they
                      bypassed the IVR, pressing buttons randomly or immediately pressing
                      0 for the operator rather than attempting to provide any responses to
                      the IVR.
                      Only five callers successfully received an answer to their question from the
                      IVR. In March 2007, a 1-800-MEDICARE CMS official stated that in
                      January 2007, approximately 19 percent of all calls were completed or
                      terminated in the IVR without being transferred to a CSR, indicating
                      that those callers resolved their questions or problems using the
                      information available through the IVR or hung up. During our week of
                      fieldwork, 21 percent of callers hung up before receiving answers from
                      either the IVR or a CSR, and only 5 of 206 callers reported receiving
                      answers to their questions using the IVR. Although 5 callers are too
                      few to allow projection of the results, it suggests that few of the
                      19 percent of callers that the CMS official described to us resolved their
                      issues using the IVR. It is more likely that callers were simply hanging
                      up. In communications with OIG, CMS stated that one of the goals of
                      the IVR is to readily answer Medicare questions 24 hours per day,
                      7 days per week, 365 days per year. The responses of our callers may
                      indicate that the IVR is not achieving this goal.


    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   10
F   I N D I N G 
S


                      Nineteen percent of callers reported not receiving answers to their
                      questions or all the information they needed during the sampled calls, an
                      improvement of 5 percentage points over 2004
                      Eighty-one percent of callers reported that they received answers to
                      their questions and all the information they needed. Nineteen percent
                      of callers provided negative responses to one or both of two questions
                      concerning whether they received answers to their questions and
                      whether they received all the information they needed. In comparison
                      with our 2004 baseline data, 24 percent of callers reported not receiving
                      answers or all the information they needed.

                      We asked callers to explain why they believed that they had not
                      received answers or all the information needed. Some callers expressed
                      that the CSR could not answer their questions or transferred them to
                      another CSR, but the transfer did not result in answers to their
                      questions. One caller said, “[I was] bounced around to several CSRs,
                      but never got the information [I] needed.” Two callers described being
                      asked to call back at a different time because the office with the
                      information they needed was closed. One caller said “[The CSR] said I
                      should call again on Monday and ask for ‘Part B Claims’ and speak with
                      a specialist.” CMS officials explained that CSRs trained to respond to
                      questions regarding specific claims are available only from 8 a.m. to
                      7 p.m. eastern time, because data from the mainframe computer
                      systems these CSRs use to answer questions are not available outside
                      these hours. The limited availability of these CSRs resulted in some
                      callers’ not receiving answers to their questions during the sampled call.

                      Other callers reported that they received no information or received
                      incomplete information. For example, one caller said that she was
                      interested in the “Welcome to Medicare” physical and looked in the
                      Medicare handbook for information on it, but still had a question.
                      During her call to 1-800-MEDICARE, she navigated the IVR to attempt
                      to order the “Preventative Services” brochure, but the IVR said the
                      brochure was unavailable. The caller then waited for a CSR to answer
                      her question, but the caller reported that all the CSR could do was read
                      her what she had already read in the handbook. The caller summed up
                      her experience by saying, “To have spent the time and not get an
                      answer—that's frustrating.”




    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   11
F   I N D I N G        S


                      Twelve percent of callers who completed their calls reported not receiving
                      the answers as quickly as they desired
                      We asked those callers who completed their calls whether they received
                      the answers as quickly as they desired. Fifty-nine percent of callers
                      who completed their calls reported that they received the answers as
                      quickly as desired; 12 percent of callers reported they did not.8 The
                      callers who did not receive answers as quickly as they desired described
                      difficulties such as having long waits, spending time navigating the
                      IVR, having to call other organizations such as their prescription drug
                      plan, and having to make multiple calls to 1-800-MEDICARE because
                      the claims history system had not been updated. During the week of
                      our fieldwork, sampled callers made an average of 1.7 calls to 1-800-
                      MEDICARE, ranging from 1 to 9. This average has decreased since
                      2004, when sampled callers made an average of 2.4 calls during the
                      week of fieldwork. In our 2004 baseline data, 12 percent of callers also
                      reported not receiving answers as quickly as they desired.




                          8 This question was not applicable to the remaining callers, because they had previously
                      reported not receiving answers to their questions or all the information they needed and
                      therefore could not comment on how quickly they received answers.



    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES        12
Δ   R E C O M M E N D A T I O N S




                  Call volume increased 68 percent between FY 2004 and FY 2006; during
                  this same period, call center costs more than doubled. Overall, the
                  majority of callers were satisfied with telephone customer service during
                  the week of our fieldwork in 2007; however, satisfaction decreased by
                  13 percentage points when compared with the 2004 baseline data. The
                  percentage of callers experiencing difficulty accessing information has
                  remained the same, at 44 percent. Callers’ negative comments
                  regarding the IVR also remained similar to the results of our 2004
                  baseline data, with callers citing confusion, aggravation, and too much
                  time spent navigating the menus. We note that more callers hung up
                  before receiving responses to their questions in our week of fieldwork in
                  2007 than in the 2004 baseline data and that an increased number of
                  callers cited the amount of time spent on the telephone as their highest
                  customer service priority. We recommend that CMS:
                  Reassess the Level of Resources Directed Toward Improving the
                  Question-Answering Capabilities of the IVR
                  Only 5 of 206 callers reported receiving answers to their questions using
                  the IVR. In both the 2004 baseline data and 2007 data, callers
                  emphasized their preference to obtain answers to their questions from
                  live persons. CMS should reassess whether it should continue to direct
                  resources toward further improving the question-answering capabilities
                  of the IVR or toward supporting more CSRs to answer questions.
                  Ensure That Callers Receive All Needed Information
                  In many instances, 1-800-MEDICARE is the primary source of
                  telephone customer service for Medicare information. When
                  1-800-MEDICARE fails to provide needed information, callers often
                  have few alternative methods to obtain it. The most common reason
                  callers gave for overall dissatisfaction was that their questions or
                  problems were not resolved. CMS should consider ways to ensure that
                  callers’ questions are fully answered during their first call. For
                  example, CSRs could ask at the end of every call whether questions
                  were fully answered, followed by asking the caller if there is anything
                  else they could help them with. CMS could also evaluate CSR training
                  on escalating unresolved calls to more highly trained CSRs and/or
                  supervisors. Providing callers with complete answers during their first
                  call may reduce the number of repeat calls on the same issue.




OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   13
R   E C O        M M E N D A T                         I O N               S


                      Continue To Seek Ways To Reduce Wait Times
                      Since the 2004 baseline data were collected, a new call routing system
                      has been implemented that routes callers to the first available CSR
                      regardless of geographic location, thereby reducing caller wait times.
                      Other improvements to the call routing system allow callers to key
                      information while waiting to speak to CSRs so that they do not have to
                      provide that information while speaking with the CSRs, thereby
                      reducing call handling and transfer times. CMS should continue to seek
                      ways to reduce the time callers must wait to speak with CSRs.
                      Increasing the number of CSRs available to answer a broader range of
                      questions and ensuring that callers’ questions are fully answered may
                      reduce the need for multiple calls and shorten wait times.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its comments to the draft report, CMS did not indicate whether it
                      concurred with our recommendations. However, CMS described several
                      actions that it has taken or planned that relate to our findings and
                      recommendations. CMS stated that it will further determine how best
                      to simplify choices and menu options within the IVR, conduct a study to
                      help determine why callers are not receiving the information they need,
                      and implement technological solutions to provide beneficiaries with
                      options for obtaining answers to their questions without having to wait
                      to talk to a CSR. CMS provided information on efforts underway or
                      planned for the future aimed at improving call-center operations. We
                      ask that, in its final management decision, CMS more clearly indicate
                      whether it concurs with our recommendations and what steps, if any, it
                      will take to implement them. For the full text of CMS’s comments, see
                      Appendix D.




    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   14
Δ           A P P E N D I X ~ A

                                                      Confidence Intervals
2007 Caller Experiences
                                                                                                                                      Confidence
Finding                                                                                                         Point Estimate           Interval
                                                                                                                                      95-Percent


Callers who hung up before receiving answers to their questions                                                              20.6%   15.0%–26.3%


Callers who completed their calls                                                                                            79.3%   74.0%–85.0%


Callers who hung up because they considered the wait time to speak with a
                                                                                                                             66.4%   52.0%–80.9%
customer service representative (CSR) too long


Callers who spoke with CSRs and believed they had to wait too long                                                           38.0%   31.0%–45.6%


Callers who ranked time spent on the telephone as the most important customer
                                                                                                                             23.9%   17.0%–30.6%
service priority



Callers asked to rate satisfaction who were satisfied overall with the customer
                                                                                                                             70.5%   63.0%–77.7%
service received



Callers asked to rate satisfaction who were unsatisfied overall with the customer
                                                                                                                             18.9%   13.0%–25.1%
service received



Callers asked to rate satisfaction who were unsure whether they were satisfied with
                                                                                                                             10.5%    6.0%–15.3%
the customer service received



Callers who were not satisfied because their questions or problems were not
                                                                                                                             13.1%    8.0%–18.4%
resolved


Callers who reported difficulty accessing information from call centers                                                      43.8%   37.0%–50.7%


Callers who reported that the Interactive Voice Response (IVR) was not easy to use                                           30.7%   24.0%–37.1%


Callers who repeorted that the IVR did not understand their spoken responses                                                 20.2%   15.0%–25.8%


Callers who reported negative opinions of the IVR                                                                            37.3%   31.0%–44.0%


Callers who expressed a desire to speak with a live person                                                                   18.4%   13.0%–23.8%


  Source: Office of Inspector General analysis of caller interviews, 2007.




       OEI-07-06-00530          1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES                            15
    A     P   P E N D          I X ~             A
2007 Caller Experiences

                                                                                                                                      Confidence Interval
Finding                                                                                                     Point Estimate
                                                                                                                                              95-Percent


Callers who reported not receiving answers to their questions or all the
                                                                                                                            18.9%           13.0%–24.9%
information that they needed



Callers who reported receiving answers to their questions and all the
                                                                                                                            81.0%           75.0%–87.1%
information that they needed


Callers who reported not receiving answers as quickly as they desired                                                        12.3%           6.0%–18.4%


Callers who reported receiving answers as quickly as they desired                                                           58.5%           51.0%–66.1%


 Source: Office of Inspector General analysis of caller interviews, 2007.


2004 Caller Experiences

                                                                                                                                     Confidence Interval
Finding                                                                                                    Point Estimate
                                                                                                                                             95-Percent


Callers who hung up before receiving answers to their questions                                                         12.0%               8.0%–16.1%


Callers who ranked time spent on the telephone as the most important
                                                                                                                        11.7%               8.0%–15.8%
customer service priority



Callers asked to rate satisfaction who were satisfied overall with the customer
                                                                                                                        84.5%              80.1%–88.9%
service received



Callers who were not satisfied because their questions or problems were not
                                                                                                                            8.4%            5.0%–12.0%
resolved


Callers who reported difficulty accessing information from call centers                                                 43.7%              37.7%–49.6%


Callers who reported that the IVR was not easy to use                                                                   31.6%              25.9%–37.4%


Callers who reported not receiving answers to their questions or all the
                                                                                                                        24.4%              18.9%–29.9%
information that they needed


Callers who reported not receiving answers as quickly as they desired                                                   12.4%               8.3%–16.4%

 Source: Office of Inspector General analysis of caller interviews, 2004.




        OEI-07-06-00530          1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES                                        16
          Δ         A P P E N D I X ~ B


                                                            Statistical Correlations
Caller Experiences
                                                                                                                                  Weighted Chi-Square Test
Finding                                                                                                                                 Degrees of
                                                                                                                                                         P-value
                                                                                                                                         Freedom
Relationship between finding the Interactive Voice Response (IVR) system easy to
use and satisfaction (n=161)
                                                                                                Percent Responding
                                                     Percent Satisfied
                                                                                               Other Than Satisfied*

  IVR easy to use/don't remember                                              77%                                        23%                     1        0.0089

                  IVR not easy to use                                         54%                                        46%

Relationship between receiving answers to questions and all information needed
and satisfaction (n=161)
                                                                                                Percent Responding
                                                     Percent Satisfied
                                                                                               Other Than Satisfied*
                                                                                                                                                        less than
                                                                                                                                                 1
                   Received answers                                           81%                                        19%                              0.0001
            Did not receive answers                                           26%                                        74%
Relationship between receiving answers to questions as quickly as desired and
satisfaction (n=161)
                                                                                                Percent Responding
                                                     Percent Satisfied
                                                                                               Other Than Satisfied*
                                                                                                                                                        less than
                                                                                                                                                 1
          Received answers quickly                                            92%                                            8%                           0.0001
   Did not receive answers quickly                                            73%                                        27%
*Includes sampled callers who reported that they were unsure or neither satisfied nor unsatisfied, in addition to
sampled callers who reported that they were unsatisfied.
Caller Experiences
Finding                                                                                                                                              T-test

Relationship between overall caller satisfaction between April 12–16, 2004, evaluation (n=271) and overall caller
satisfaction between January 22–26, 2007, evaluation (n=161)
                                                                                                               Percent Responding Other
                                                                    Percent Satisfied                                                                    P-value
                                                                                                                         Than Satisfied*

                      April 12–16, 2004 evaluation                                          84%                                         16%
                                                                                                                                                          0.0012
                  January 22–26, 2007 evaluation                                            71%                                         29%

*Includes sampled callers who reported that they were unsure or neither satisfied nor unsatisfied, in addition to

sampled callers who reported that they were unsatisfied.

Source: OIG analysis of caller interviews, 2004 and 2007.

               OEI-07-06-00530         1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES                                    17
Δ   A P P E N D I X ~ C

                           Profile of Surveyed Callers


                                                                                                       Number of
                                                                                                         Callers

                               Who called? (Three callers called both for
                                   themselves and for a family member)
                                                                                 Beneficiary               160/206
                                                      Beneficiary’s family member                           38/206
                           Other (e.g., provider or insurance office staff)                                  8/206
                                                                     Why did they call?
                                                                         Benefit question                  134/206
                                                  Medical bill or summary notice                            46/206
                           Other (e.g., address change, multiple issues)                                    26/206
                        How did they know to call 1-800-MEDICARE?
                     (Five callers knew about 1-800-MEDICARE from
                                               more than one source)
                                                    Printed on a notice I received                          69/206
                                                 Someone gave me the number                                 41/206
                                                                            Medicare card                   36/206
                                                      “Medicare & You” handbook                             29/206
                                                                  Previous knowledge                        25/206
                                       Other (e.g., Internet, telephone book)                               11/206

                  Did they try to get their questions answered through
                         any other source before calling? (Six callers
                       consulted more than one source before calling)

                                                         No other source consulted                         115/206
                        Called other organization (e.g., provider, health
                                                                                                            83/206
                                   plan sponsor, secondary insurance)
                                                                       Internet Web site                     8/206
                                                Medicare handbook or brochure                                5/206
                                             Friend, family member, counselor                                1/206
                      How many times did they call 1-800-MEDICARE
                                                    during the week?
                                                                                             1-3           192/206
                                                                                             4-9            14/206
                                                            Average number of calls                            1.7

                  Source: Office of Inspector General analysis of caller interviews, 2007.




OEI-07-06-00530      1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES             18
Δ   A P P E N D I X ~ D
                      C
    Agency Comments




OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   19 

A   P   P E N D       I X            D            





    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   20
A   P   P E N D       I X            D            





    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   21
A   P   P E N D       I X            D            





    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   22
A   P   P E N D       I X            D            





    OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   23
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Deputy Regional
                  Inspector General.

                  Tricia Fields served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Kansas City regional
                  office who contributed to the report include Michala Walker and Megan
                  Buck. Central office staff who contributed include Robert Gibbons and
                  Scott Manley.




OEI-07-06-00530   1 - 8 0 0 - M E D I C A R E : C A L L E R S AT I S FA C T I O N   AND   EXPERIENCES   24
